 DEPARTMENT OF HOMELAND SECURITY

  Ofﬁce of Inspector General


 Implementation of the United States Visitor

 and Immigrant Status Indicator Technology 

   Program at Land Border Ports of Entry





Ofﬁce of Inspections, Evaluations, & Special Reviews


OIG-05-11                    February 2005
                                                                     Ofﬁce of Inspector General

                                                                     U.S. Department of Homeland Security
                                                                     Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared by
the OIG as part of its DHS oversight responsibilities to promote economy, effectiveness, and
efﬁciency within the department.

This report assesses the status of the United States Visitor and Immigrant Status Indicator
Technology (US-VISIT) program and highlights potential areas that could inhibit the program’s
effectiveness. It is based on interviews with employees and ofﬁcials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

I express my appreciation to all of those who contributed to the preparation of this report.



                                              Richard L. Skinner
                                              Acting Inspector General
                                                                                                                        Contents


  Introduction.................................................................................................................................... 3


  Results in Brief .............................................................................................................................. 3


  Background .................................................................................................................................... 5


  Purpose, Scope, and Methodology............................................................................................... 10


  Findings… ................................................................................................................................... 11


          Status of US-VISIT Planning and Implementation at Land POEs ..................................... 11


          Challenges That Inhibit US-VISIT Effectiveness .................................................................15

Appendices

  Appendix A:            Deployment at the Highest Volume Land Ports of Entry .................................. 23

  Appendix B:            Management Comments...................................................................................... 25
  Appendix C:            OIG Evaluation of Management Comments ...................................................... 30

  Appendix D:            Major Contributors to This Report ..................................................................... 33

  Appendix E:            Report Distribution............................................................................................. 34





                                   Implementation of the United States Visitor and Immigrant Status                                             Page 1

                                     Indicator Technology Program at Land Border Ports of Entry

Contents


Abbreviations

     ADIS        Arrival Departure Information System
     APIS        Advance Passenger Information System
     BCC         Border Crossing Card
     BSS         Biometric Support System
     BTS         Border and Transportation Security
     BVS         Biometric Veriﬁcation System
     CBP         Customs and Border Protection
     CCD         Consolidated Consular Database
     DHS         Department of Homeland Security
     DMIA        Data Management Improvement Act of 2000
     DOJ         Department of Justice
     DOS         Department of State
     FY          Fiscal Year
     GIS         Global Information System
     IAFIS       Integrated Automated Fingerprint Information System
     IBIS        Interagency Border Inspection System
     ICAO        International Civil Aviation Organization
     ICE         Immigration and Customs Enforcement
     IDENT       Automated Biometric Identiﬁcation System
     IIRIRA      Illegal Immigration Reform and Immigrant Responsibility Act
                 of 1996
     IPT         Integrated Project Team
     NAILS       National Automated Immigration Lookout System
     NATO        North Atlantic Treaty Organization
     NCIC        National Crime Information Center
     OIG         Ofﬁce of Inspector General
     POE         Port of Entry
     RFID        Radio Frequency Identiﬁcation
     SENTRI      Secure Electronic Network for Travelers Rapid Inspection
     SEVIS       Student and Exchange Visitor Information System
     USCIS       United States Citizenship and Immigration Services
     US-VISIT    United States Visitor and Immigrant Status Indicator
                 Technology

     VWP         Visa Waiver Program





Page 2          Implementation of the United States Visitor and Immigrant Status
                  Indicator Technology Program at Land Border Ports of Entry
OIG

Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                       We reviewed the Department of Homeland Security’s (DHS) efforts to implement
                       the United States Visitor and Immigrant Status Indicator Technology (US-VISIT)
                       program at the 50 highest volume land ports of entry (POEs) by December 31,
                       2004. We examined DHS’ planning efforts in the context of whether DHS would
                       meet legislative mandates for deploying US-VISIT to land POEs.

                       The US-VISIT program collects biographic and biometric information concerning
                       foreign nationals traveling to the United States through designated POEs.
                       Information collected is used by DHS to determine whether visitors should be
                       prohibited from entering the United States; apprehended or detained for law
                       enforcement action; allowed to receive, extend, or otherwise change immigration
                       status; or provided special protection or attention. The US-VISIT program will
                       establish the capability and capacity to electronically record the entry and exit of
                       such visitors by reconciling entry and exit records so that determinations may be
                       made whether visitors overstay the period of their admission to the United States.



    Results in Brief

                       The US-VISIT program implemented on December 31, 2004, will initially enroll
                       just a fraction, approximately 2.7%, of the foreign visitors entering the United
                       States at land POEs. Additionally, the speciﬁcations for the automated exit
                       component at land POEs remain undeﬁned and, therefore, an exit component for
                       travelers required to enroll in US-VISIT is not yet available.

                       We are not making recommendations in this report because the US-VISIT
                       program is evolving rapidly. Therefore, the value of any recommendation to
                       enhance implementation or operations likely would be short lived or premature.
                       However, we have highlighted several areas that could inhibit the program’s
                       overall effectiveness if not addressed.




                          Implementation of the United States Visitor and Immigrant Status          Page 3
                            Indicator Technology Program at Land Border Ports of Entry
                           We are concerned about the large number of travelers who are exempt from
                           enrollment in US-VISIT. This includes Mexican Border Crossing Card (BCC)
                           holders. BCC holders, who accounted for approximately 43.8% of foreign
                           national land border crossings in ﬁscal year (FY) 2002, are exempt from
                           enrollment if they enter under BCC provisions. Furthermore, visa exempt
                           Canadians, who accounted for approximately 22% of foreign national land border
                           crossings in FY 2002, are excluded from enrollment. Visa exempt Canadians may
                           be admitted to the United States with limited information to verify their identities.
                           In addition, foreign nationals from Visa Waiver Program (VWP) countries
                           accounted for approximately 0.8% of the foreign national land border crossings
                           in FY 2002.1 While we support the enrollment of VWP countries in US-VISIT
                           and believe this practice enhances the integrity of the immigration process, as
                           VWP countries become compliant with International Civil Aviation Organization
                           (ICAO) standards,2 the technology embedded in passports will be different from
                           technology employed by US-VISIT. Until the two technologies for verifying a
                           traveler’s identity and admissibility are integrated, VWP countries should remain
                           enrolled in US-VISIT.3

                           Finally, the time consuming process that the Customs and Border Protection
                           (CBP) ofﬁcers must use to query multiple database systems to verify travelers’
                           identities and identify potential criminals and terrorists is particularly problematic
                           at land POEs because of the limited time available to conduct the queries. As
                           a result, travelers at land POEs are not inspected as intensively as those at air
                           and sea POEs. The integration of the multiple database systems is needed to
                           enable CBP ofﬁcers at land POEs to validate the identity of visitors requesting
                           admission.



1
  The VWP permits foreign nationals from designated countries to apply for admission to the United States for a maximum of
90 days as visitors for business or pleasure without ﬁrst obtaining a non-immigrant visa. Participating countries are Andorra,
Australia, Austria, Belgium, Brunei, Denmark, Finland, France, Germany, Iceland, Ireland, Italy, Japan, Liechtenstein,
Luxembourg, Monaco, the Netherlands, New Zealand, Norway, Portugal, San Marino, Singapore, Slovenia, Spain, Sweden,
Switzerland, and the United Kingdom.
2
  The ICAO coordinates the development of a code of international aviation law and functions to facilitate the adoption of
common documents and to promote their general acceptance.
3
  In our report, An Evaluation of the Security Implications of the Visa Waiver Program, OIG-04-26, we discuss the national
security implications of the VWP. VWP travelers do not apply for a visa before traveling to the United States and thereby
avoid the rigorous visa application process conducted by the Department of State consular ofﬁcers. Therefore, when VWP
travelers arrive in the United States, CBP ofﬁcers have very little information about the travelers to verify identiﬁes and
to make admissibility decisions. The VWP program presents a potential national security concern because terrorists and
criminals may use passports from VWP countries to avoid the visa application process. Further, the signiﬁcance of this
national security problem is increased because of the large number of lost and stolen VWP passports potentially available to
terrorists and criminals. This report is also available on our website at http://www.dhs.gov.oig.


Page 4                         Implementation of the United States Visitor and Immigrant Status
                                 Indicator Technology Program at Land Border Ports of Entry
                           We are cautiously optimistic that the deliberate approach to implementing US-
                           VISIT and the extensive coordination with other governmental entities, interested
                           groups, and the program’s prime integrator, will eventually achieve the program’s
                           goals and the legislative mandates. However, deﬁning and achieving the long
                           term, comprehensive vision for an automated, integrated entry exit program will
                           require a massive coordinated effort and will not be realized for at least ﬁve to ten
                           years.



Background
                           Legislative Requirements

                           Legislative efforts to create an entry exit control system to record and match
                           arrival and departure records for foreign nationals traveling to the United States
                           began in 1996. Section 110 of the Illegal Immigration Reform and Immigrant
                           Responsibility Act of 1996 (IIRIRA)4 required that the departure of every
                           foreign national from the United States be recorded and then matched to the
                           individual’s arrival record. In 2000, the Immigration and Naturalization Service
                           Data Management Improvement Act (DMIA)5 amended the IIRIRA and provided
                           multiple implementation deadlines. The DMIA required an electronic system
                           that would provide access to and integrate available foreign national arrival and
                           departure data, match arrival records to departure records, allow online search
                           procedures to identify foreign nationals who have overstayed their authorized
                           period of admission, and use available data to produce a report of arriving and
                           departing foreign nationals. DMIA required the implementation of the integrated
                           entry exit system at airports and seaports by December 31, 2003; at the 50 highest
                           volume land POEs by December 31, 2004; and at remaining POEs by December
                           31, 2005.6

4
  P.L. 104-208.
5
  P.L. 106-215.
6
  The DIMA legislation (P.L. 106-215, section 2(c)(1)) states, “Nothing in this section shall be construed to permit the
Attorney General or the Secretary of State to impose any new documentary or data collection requirements on any person
in order to satisfy the requirements of this section…” US-VISIT program ofﬁcials interpreted this section to mean that
travelers who were not previously required to present identity or citizenship documents, or be enrolled in a U.S. traveler
entry procedure when they entered the United States, would not be required to be part of US-VISIT enrollment procedures
by these deadlines. Therefore, most Mexican and Canadian travelers were not included in the US-VISIT implementation that
occurred at the land POEs in December 2004. Originally, this exclusion also included VWP travelers. However, in response
to a security vulnerability we identiﬁed in our report, An Evaluation of the Security Implications of the Visa Waiver Program,
OIG-04-26, April 2004, DHS decided to enroll VWP travelers in US-VISIT beginning in September 2004. This report is also
available on our website at http://www.dhs.gov.oig.


                               Implementation of the United States Visitor and Immigrant Status                       Page 5
                                 Indicator Technology Program at Land Border Ports of Entry
                  Also in 2000, the Visa Waiver Permanent Program Act7 added a requirement for
                  airports and seaports to have an automated entry exit control system in place for
                  arrivals and departures of foreign nationals from VWP countries. The sense of
                  Congress, as expressed in the Uniting and Strengthening America by Providing
                  Appropriate Tools Required to Intercept and Obstruct Terrorism Act of 2001
                  (USA PATRIOT Act), is that the United States have an integrated entry exit
                  system fully implemented “with all deliberate speed and as expeditiously as
                  practicable.”8

                  Finally, the Enhanced Border Security and Visa Entry Reform Act of 2002
                  (Border Security Act)9 required the establishment of a database containing arrival
                  and departure information from machine-readable visas, passports, and other entry
                  documents, and that security databases relevant to making admissibility decisions
                  be interoperable.

                  US-VISIT Program Organization

                  In July 2003, the Secretary of DHS created the US-VISIT Program Ofﬁce
                  (Program Ofﬁce) within the Border and Transportation Security (BTS)
                  directorate. The Program Ofﬁce was positioned organizationally at a level
                  comparable to BTS’ Bureaus of CBP and Immigration and Customs Enforcement
                  (ICE). The Program Ofﬁce is responsible for designing and implementing the
                  automated, electronic entry exit control system as required by Congress. The
                  purpose of US-VISIT is to identify visitors who may pose a threat to the security
                  of the United States, who may have violated the terms of their admission to the
                  United States, or who may be wanted for the commission of a crime in the United
                  States or elsewhere, while simultaneously facilitating legitimate travel and trade.

                  US-VISIT Enrollment Process

                  US-VISIT collects and retains biographic, travel, and biometric information, such
                  as photographs and ﬁngerprints, of foreign nationals seeking entry into the United
                  States. Information collected is checked against lookout databases to ensure
                  that known or suspected terrorists, criminals, and previous U.S. immigration
                  law violators are not admitted. The capability to link biometric information
                  with travel documents will greatly reduce the possibility that visitors could



7
  P.L. 106-396.
8
  P.L. 107-56.
9
  P.L. 107-173.


Page 6               Implementation of the United States Visitor and Immigrant Status
                       Indicator Technology Program at Land Border Ports of Entry
                            misrepresent their identities or later assume another identity to gain admission
                            into the United States.

                            The US-VISIT enrollment process involves the electronic scanning of the foreign
                            national’s left and right index ﬁngers and the taking of a digital photograph.
                            Program ofﬁcials said the biometric enhancements to the entry procedures add
                            minimal time to the inspection process – an average of 15 to 23 seconds in most
                            cases.

                            Initial US-VISIT Implementation

                            DHS implemented the ﬁrst phase of the US-VISIT program, referred to as
                            “Increment 1,” after publishing an interim rule in the Federal Register on January
                            5, 2004.10 This interim rule required foreign nationals with non-immigrant visas
                            seeking admission to the United States to provide ﬁngerprints, photographs, or
                            other biometric identiﬁers upon arrival in or departure from the United States at
                            air and sea POEs.

                            On January 5, 2004, DHS began enrolling foreign nationals in US-VISIT at
                            115 air and 14 sea POEs. In addition, two exit pilot tests were deployed, one
                            at the Baltimore Washington International Airport and another at the Miami
                            International Cruise Line Terminal. The exit information is collected through the
                            use of self-serve “kiosks” that are located within the terminals at each location.
                            In August and September 2004, US-VISIT deployed the exit pilot test program
                            to an additional eleven airports and two seaports. Beginning on September 30,
                            2004, foreign nationals from VWP countries, initially exempt from US-VISIT
                            enrollment, were required to enroll at air and sea POEs.

                            As of January 24, 2005, DHS has processed 18,069,639 visitors in US-VISIT.
                            The biometric identiﬁcation capability of US-VISIT has resulted in 2,290 matches
                            or “hits” with law enforcement databases. The hits include 1,046 criminals and
                            1,244 immigration violators.11

                            Differences Between Land POE Inspections and Air and Sea POE
                            Inspections

                            Program ofﬁcials said there is a marked difference in inspections conducted at
                            airports and seaports compared to inspections conducted at land POEs. The

10
     69 FR 468.

11
     Data provided by the US-VISIT Program Ofﬁce, January 26, 2005.



                                Implementation of the United States Visitor and Immigrant Status          Page 7
                                  Indicator Technology Program at Land Border Ports of Entry
                           majority of foreign national visitors seeking admission at sea and air POEs
                           receive a more comprehensive examination because of their varied status,
                           divergent points of origin, unfamiliarity with admissibility requirements and
                           regulations, and the potential security risks to the United States.12

                           Before airplanes or ships arrive at U.S. POEs, carriers are required to transmit
                           passenger and crew manifest data to CBP. This data includes the last name, ﬁrst
                           name initial, date of birth, and passport number of each passenger. Prior to the
                           arrival of the planes or ships in the United States, DHS analysts have time to
                           check this data against identity and lookout information. The analysts conduct
                           queries of multiple databases, such as the Federal Bureau of Investigation’s
                           National Crime Information Center (NCIC), the Interagency Border Inspection
                           System (IBIS), the Student and Exchange Visitor Information System (SEVIS),
                           and the Consolidated Consular Database (CCD). If the database queries indicate
                           criminal or terrorist associations, or other information that may disqualify a
                           passenger from admission, the passenger is referred to secondary inspections13 for
                           more thorough examination. Unless otherwise exempt, non-immigrant passengers
                           are issued Forms I-94 or I-94W Arrival/Departure Record14 and enrolled in US-
                           VISIT during the primary inspections process at airports and seaports.

                           By way of contrast, at land POEs, CBP ofﬁcers do not receive any advance
                           traveler information and do not have the same opportunity to analyze advance
                           manifest or other data prior to the travelers’ arrival at the POEs’ primary
                           inspections area. During the primary inspections process at land POEs, travelers
                           remain in their vehicles while CBP ofﬁcers visually inspect travel documents.
                           The only automated database check that is conducted is by digital license plate
                           readers located in the vehicle lanes in primary inspections. As the vehicle passes
                           by the license plate readers, the scanners read the vehicle’s license plate and query
                           the vehicle’s license plate number in IBIS.15 Although the results are available

12
   Most visitors arriving in the United States via land POEs are citizens of Mexico or Canada. Visitors arriving at air POEs
may arrive from embarkation ports almost anywhere in the world and may be citizens of any country including countries that
sponsor or harbor terrorist activities. Therefore, the potential that a terrorist or criminal would attempt to enter the United
States through an air POE is much greater and thus CBP ofﬁcers must give these visitors greater scrutiny.
13
   The secondary inspections area of a land POE is an area traditionally away from primary inspections lanes where CBP
ofﬁcers perform more intensive questioning of the traveler, verify admissibility documents by querying various databases,
and inspect the vehicle if appropriate.
14
   Foreign nationals traveling on non-immigrant visas are issued Form I-94 and foreign nationals traveling from VWP
countries are issued Form I-94W. Forms 1-94 and I-94W show the date of arrival, port of entry, and date the authorized
period of admission expires.
15
   IBIS is a shared database of lookout and enforcement data contributed from many federal agencies, including the
Departments of State and Agriculture. The system objectives are to identify and intercept persons attempting illegal
entry into the United States and to facilitate lawful travelers and enhance border enforcement. Immigration lookout

Page 8                         Implementation of the United States Visitor and Immigrant Status
                                 Indicator Technology Program at Land Border Ports of Entry
                          within seconds to the CBP ofﬁcer for review, the value of the information is
                          limited. The results will provide law enforcement and border crossing related
                          information about only the vehicle, which may or may not pertain to the vehicle’s
                          occupants. The database search may not help to verify the travelers’ identities or
                          identify possible terrorist or criminal associations.

                          At land POEs, most secondary inspections referrals are for routine matters
                          necessary to process immigrant and non-immigrant documents, such as Form I-
                          94 or I-94W issuance, and not because of law enforcement concerns. Travelers
                          referred to secondary inspections must park their vehicles and enter the secondary
                          inspections area for processing. Travelers required to enroll in US-VISIT will be
                          referred to secondary inspections for processing.

                          Generally, Forms I-94 issued at land POEs are issued for unlimited multiple
                          entries until speciﬁed expiration dates or a speciﬁc number of entries has
                          occurred. When issued Forms I-94, travelers will enroll in US-VISIT. However,
                          travelers will not be required to enroll in US-VISIT on subsequent visits using the
                          multiple entry Forms I-94. Travelers admitted under VWP provisions are issued
                          Forms I-94W. In FY 2003, approximately 3.2 million I-94 Arrival/Departure
                          Records were issued at all land border ports.

                                             FY 2003 Form I-94 Issuance at All Land Border POEs16

                                                          Northern         Southern              Total
                                             I-94           282,325          2,631,778           2,914,103
                                             I-94W          233,251             12,589             245,840
                                             Total          515,576          2,644,367           3,159,943

                          Assuming that FY 2003 travel patterns remain unchanged, this data reﬂects the
                          approximate number of travelers who will be processed through US-VISIT upon
                          entry at land POEs.




information is provided through the National Automated Immigration Lookout database and downloaded to IBIS nightly.
IBIS also provides access to the NCIC and allows users to interface with all 50 states via the National Law Enforcement
Telecommunications Systems.
16
   Data provided by the US-VISIT Program Ofﬁce, Increment 2B Concept of Operations, page 7, May 28, 2004. Note: This
data represents the number of Forms I-94 issued, not the total number of crossings (multiple entries on a Form I-94) in FY
2003.


                              Implementation of the United States Visitor and Immigrant Status                      Page 9
                                Indicator Technology Program at Land Border Ports of Entry
Purpose, Scope, and Methodology
              We reviewed efforts undertaken by the Program Ofﬁce to develop, deploy, and
              implement US-VISIT at the 50 highest volume land POEs by December 31,
              2004. The objective of the review was to determine whether the Program Ofﬁce’s
              planning process for the implementation of US-VISIT at land POEs addresses
              all of the legislative requirements for an entry exit system. Speciﬁcally, we
              examined the progress made by the Program Ofﬁce to develop implementation
              plans, modify existing facilities, conduct or plan pilot testing of systems and
              new technology, integrate database systems, achieve program goals, and meet
              mandated timelines.

              We analyzed documents provided by the US-VISIT Program Ofﬁce including the
              Increment 2B Concept of Operations, Cost Beneﬁt Analysis, and Expenditure,
              Communication, and Risk Management plans. We also reviewed relevant Federal
              Register notices, reports from the Government Accountability Ofﬁce, internet
              websites, and news articles.

              We interviewed Program Ofﬁce ofﬁcials and staff responsible for implementing
              US-VISIT at the 50 land ports and met with ofﬁcials from the Government
              Accountability Ofﬁce. We conducted telephone interviews with several
              interested groups including the Center for Immigration Studies and the American
              Immigration Lawyers Association. We met with representatives from the
              United States Chamber of Commerce and attended a conference on May 12,
              2004, “Securing The Future of Travel And Tourism,” sponsored by the United
              States Chamber of Commerce. We also attended a demonstration of the US-
              VISIT enrollment process and conducted a site visit at Baltimore Washington
              International Airport to observe the actual enrollment of foreign nationals in US-
              VISIT upon entry to the United States.

              The review was conducted under the authority of the Inspector General Act of
              1978, as amended, and according to the Quality Standards for Inspections issued
              by the President’s Council on Integrity and Efﬁciency.




Page 10          Implementation of the United States Visitor and Immigrant Status
                   Indicator Technology Program at Land Border Ports of Entry
Findings

     Status of US-VISIT Planning and Implementation at Land POEs

                         Initially, the Program Ofﬁce focused its efforts on deploying US-VISIT
                         capabilities, developing policy, and establishing procedures at air and sea POEs.
                         Air and sea POEs offer an array of logistical and control features, such as
                         scheduled arrival and departure times, accommodations for delayed travel, and
                         advance passenger information, which are all conducive to facilitating a visitor
                         entry exit system. Small increases in passenger processing time are more readily
                         managed at such POEs than at land POEs.

                         Implementing US-VISIT at land POEs is more complex and challenging. Land
                         POEs must be able to accommodate larger and constant volumes of foreign
                         nationals. At land POEs, small increases in processing times translate more
                         quickly into travel delays that impede border crossing, which can have deleterious
                         economic costs and effects for both border nations. For example, in another
                         report,17 we examined the impact of a 20 second increase in inspections time for
                         3.5 million vehicles. We calculated that it would take the approximate equivalent
                         of 2.22 additional calendar years to inspect these additional vehicles. Although
                         other variables could affect the equation, the increase of 2.22 years in inspections
                         time could translate into signiﬁcant resource implications for CBP, as well as
                         signiﬁcant increases in waiting time for travelers.

                         Planning

                         To facilitate planning and implementation efforts, the Program Ofﬁce established
                         the Integrated Project Team (IPT). The IPT consists of members from the
                         different areas within the Program Ofﬁce, such as Mission Operations, Facilities,
                         Information Technology, and Outreach, as well as representatives from the
                         Department of State (DOS), Department of Justice (DOJ), Department of
                         Transportation, Transportation Security Administration, CBP, ICE, and United
                         States Citizenship and Immigration Services. Weekly IPT meetings provide
                         members an opportunity to discuss and address issues and risks regarding the
                         implementation of US-VISIT at the 50 highest volume land ports.



17
  A Review of the Secure Electronic Network for Travelers Rapid Inspection Program, OIG-04-14, June 2004. The report is
also available on our website at http://www.dhs.gov.oig.


                             Implementation of the United States Visitor and Immigrant Status                   Page 11
                               Indicator Technology Program at Land Border Ports of Entry
                             US-VISIT program ofﬁcials said the 50 land POEs process approximately 92%
                             of the foreign national visitors who enter and exit the United States through land
                             ports. In addition, US-VISIT included two smaller land ports located near the
                             50 land ports in the initial deployment.18 These additional satellite POEs were
                             selected to prevent travelers from bypassing US-VISIT enrollment requirements
                             at the larger POEs.

                             Looking beyond the initial deployment at the 50 land POEs, the Program Ofﬁce
                             has conducted detailed “Space Utilization Surveys” of all 165 land POEs; this
                             effort started in September 2003. By conducting the surveys at all land POEs
                             now, program ofﬁcials believe that they saved time and resources because
                             planning and preparation can begin now to address potential deployment
                             difﬁculties at remaining land POEs, some of which may need signiﬁcant
                             modiﬁcations.

                             DHS sought to assess how deployment of US-VISIT would affect wait
                             times, infrastructure, stafﬁng, and environmental concerns. To address these
                             considerations, the Program Ofﬁce conducted an analysis of each land port that
                             included aerial Global Information System (GIS) photographs, algorithmic trafﬁc
                             modeling for increased wait times and emissions impact, facilities modiﬁcation,
                             and risk management and mitigation measures.

                             Program ofﬁcials said that much of the physical modiﬁcation for vehicle and
                             pedestrian secondary inspections areas would be limited to changing the height,
                             width, and length of counters to accommodate the CBP ofﬁcer, the visitor, and
                             the equipment supporting US-VISIT. Program ofﬁcials also believe that the
                             modiﬁcations necessary at one port could be replicated at many other ports.

                             In November 2004, the Program Ofﬁce began the deployment of US-VISIT at
                             the land ports of Douglas, Arizona; Laredo, Texas; and Port Huron – Blue Water
                             Bridge, Michigan. Deployment to the remaining highest volume land POEs was
                             completed on December 31, 2004. The initial application for entry enables the
                             electronic recording of arrival data, e.g., biographic and class of admission, for
                             foreign nationals who are issued Form I-94 and Form I-94W, electronic recording
                             of two ﬁngerprints and a photograph, electronic printing Form I-94 and Form I-
                             94W, and permitting arrival data to be shared with other authorized users of the
                             system.



18
     Appendix A lists the ports included in the deployment of Increment 2B.


Page 12                          Implementation of the United States Visitor and Immigrant Status
                                   Indicator Technology Program at Land Border Ports of Entry
                          In addition, foreign national visitors participating in trusted traveler programs,
                          such as the Secure Electronic Network for Travelers Rapid Inspection (SENTRI)19
                          and NEXUS,20 will not be required to enroll in US-VISIT if they use the
                          designated program inspection lanes to enter the United States.

                          Deployment

                          The Program Ofﬁce planned the deployment of US-VISIT using four increments.
                          Program ofﬁcials believed this approach was the best way to meet program goals
                          and legislative mandates while mitigating risk. The ﬁrst three increments are
                          interim or temporary solutions. They include interconnecting and upgrading
                          existing system capabilities and deploying these capabilities to air, sea, and land
                          ports. US-VISIT traveler information collected at one POE would be accessible
                          at all POEs. Increment 4 is a still undeﬁned long term, comprehensive goal
                          that will encompass the totality of electronically tracking pre-entry, entry, status
                          management, and exit of all classes of foreign national visitors seeking initial or
                          continued admission to the United States.

                          On January 5, 2004, Increment 1 was completed with the deployment of US-
                          VISIT to 115 air and 14 sea POEs. Increment 1 includes electronically collecting
                          and matching biographic and biometric information at all major air and some sea
                          POEs for certain categories of foreign national visitors with non-immigrant visas,
                          checking admissibility against lookout databases using biographic and biometric
                          data, and establishing exit pilots. Two exit pilot tests were deployed to record
                          visitor exit information electronically through the use of self-serve “kiosks”
                          located within the terminals at each location. In August and September 2004, US-
                          VISIT deployed the exit pilot test program to an additional eleven airports and
                          two seaports.

                          Increment 2 is divided into three parts – 2A, 2B, and 2C. Increment 2A includes
                          the issuance of tamper-resistant, machine-readable, biometric passports by the
                          United States and all VWP countries, and the deployment of the capability to
                          read biometric travel documents at all U.S. air, sea, and land POEs. The Program




19
   The SENTRI program permits pre-enrolled low risk travelers to enter the United States by personal vehicle or in designated
pedestrian lanes from Mexico with minimal inspections by CBP ofﬁcers. See our previous review of this program, cited at
footnote 17.
20
   NEXUS is a CBP northern border program that streamlines border inspections for pre-approved low risk travelers by using
a joint enrollment process and one card for expedited entry to both Canada and the United States.


                              Implementation of the United States Visitor and Immigrant Status                      Page 13
                                Indicator Technology Program at Land Border Ports of Entry
                           Ofﬁce planned the implementation of Increment 2A by October 26, 2004.21
                           However, biometric readers that will read ICAO standard passports have not
                           been deployed to U.S. POEs. In addition, due to technical challenges facing
                           VWP countries in issuing their nationals machine-readable, biometric passports
                           in compliance with standards established by ICAO, DHS requested an extension
                           of the October 26, 2004, deadline. DHS ofﬁcials said a two-year extension was
                           necessary to create a realistic chance of successfully meeting the deadline. In
                           late July 2004, Congress passed legislation extending the deadline to October 26,
                           2005; the President signed this bill into law on August 9, 2004.22

                           The Program Ofﬁce said that for the most part, technical problems surrounding
                           the biometric passports have been solved and passport production has begun
                           in some nations. However, many countries, including the United States, are
                           encountering problems related to contracting, budget, and acquisition cycles. The
                           focus is now on resolving problems related to the production of biometric readers
                           and the integration of these readers into the inspections process.

                           In December 2004, the deployment of Increment 2B expanded the current
                           Increment 1 capabilities for electronically recording entry to the secondary
                           inspections areas at the 50 highest volume land POEs. Originally, Increment
                           2B was also intended to record exits. However, plans to use radio frequency
                           identiﬁcation (RFID) technology to record exits electronically are not complete.
                           Therefore, the Program Ofﬁce created Increment 2C, which will include the
                           capability to record exits electronically using RFID technology. The Program
                           Ofﬁce plans to start testing this technology by July 31, 2005.

                           By December 31, 2005, Increment 3 will expand US-VISIT to all remaining air,
                           sea, and land ports. Increment 4 is in the process of being deﬁned. It will be the
                           long-term, comprehensive goal of the program, which will consist of multiple
                           releases to increase program capability and operation. Capabilities will include
                           pre-entry, entry, status management, exit, and analysis processes23 associated with
                           the program to achieve the “virtual border” solution.



21
   In addition, the Border Security Act of 2002, mandates that any passport issued on or after October 26, 2004, must be an
ICAO compliant travel document that uses biometrics, if the bearer applies for admission into the United States under the
VWP.
22
   P.L. 108-299.
23
   In its ﬁnal form, US-VISIT program ofﬁcials envision an integrated system that will cover the interactions of foreign
nationals with United States ofﬁcials prior to their entry, when they enter, while they are in the United States, and when they
exit. Analysis will determine whether foreign nationals comply with their terms of admission and will monitor the system.


Page 14                        Implementation of the United States Visitor and Immigrant Status
                                 Indicator Technology Program at Land Border Ports of Entry
     Challenges That Inhibit US-VISIT Effectiveness

                           Enrollment of the Land Border Crossing Population

                           Enrollment is a critical component of the US-VISIT program. US-VISIT
                           enrollments will include only foreign nationals currently required to obtain a
                           Form I-94 or I-94W, unless the foreign national is in a US-VISIT exempted group.
                           Many foreign national visitors are exempt from US-VISIT based on longstanding
                           protocols, reciprocal agreements, and treaties with other countries.24

                           Of the 358.3 million total travelers entering at all land ports in FY 2002,
                           approximately 1.8 million (0.5%) are non-immigrant foreign nationals from
                           VWP countries, and approximately 4.5 million (1.3%) are non-immigrant visa
                           holders. Those two categories represent the 6.3 million (1.8%) travelers from the
                           total population of border crossers who will be required to enroll in US-VISIT at
                           land POEs. When United States citizens are subtracted from the border crossing
                           population and those required to enroll are compared with only the foreign
                           national population, still only approximately 2.7% would be required to enroll in
                           US-VISIT.




24
  Foreign visitors in visa classes that are not subject to US-VISIT are foreign nationals admitted on A-1 (Ambassador, public
minister, career, diplomatic or consular ofﬁcer, and members of immediate family), A-2 (Other foreign government ofﬁcial
or employee, and members of immediate family), C-3 (Foreign government ofﬁcials and their family members in transit),
G-1 (Principal resident representative of recognized foreign member government to international organization, and members
of immediate family), G-2 (Other representative of recognized foreign member government to international organization,
and members of immediate family), G-3 (Representative of non-recognized or nonmember government to international
organization, and members of immediate family), G-4 (International organization ofﬁcer or employee, and members of
immediate family), NATO-1, NATO-2, NATO-3, NATO-4, NATO-5, or NATO-6 visas, unless the Secretary of DOS and the
Secretary of DHS jointly determine that a class of such foreign nationals should be subject to the requirement; children under
the age of 14; persons over the age of 79; classes of foreign nationals that the Secretaries of DHS and DOS jointly determine
shall be exempt; and an individual foreign national whom the Secretary of DHS, the Secretary of DOS, or the Director of
Central Intelligence determines shall be exempt.


                               Implementation of the United States Visitor and Immigrant Status                      Page 15
                                 Indicator Technology Program at Land Border Ports of Entry
                                            Total United States Citizen and Foreign National Travelers
                                                 Crossing at United States Land POEs in FY 200225


                                                                            LAND          Percentage of Total
                                           TYPE OF TRAVELERS
                                                                           (millions)      Land Crossings
                                        United States Citizens                   120.7                     33.7
                                        BCC (Mexicans)                           104.1                    29.0
                                        Legal Permanent Residents                 75.0                     20.9
                                        Visa Exempt (Canadians)                   52.2                     14.6
                                        Foreign Nationals with Visa                4.5                      1.3
                                        Foreign Nationals (VWP)                    1.8                      0.5
                                        TOTAL                                    358.3                   100%

                          Program ofﬁcials said the limited classes of visitors currently required to enroll
                          would not signiﬁcantly affect the primary inspections process at land POEs. In
                          addition, implementing Increment 2B at land POEs is expected to have minimal
                          effect on the overall inspection times for visitors in secondary inspections areas
                          because those required to enroll are already referred from primary inspections
                          lanes to secondary inspections areas for issuance of a Form I-94 or I-94W Arrival/
                          Departure Record. Program ofﬁcials anticipate that biometric enhancements to
                          entry procedures at land borders will mirror what has been experienced at air and
                          sea POEs. They predict that implementation of Increment 2B will add minimal
                          time to the inspection process – an average of 15 to 23 seconds in most cases.

                          The Border Crossing Card

                          BCC holders accounted for approximately 43.8% of foreign national land border
                          crossings in FY 2002. DHS estimates that approximately 6.8 million Mexican
                          nationals use the BCC to make approximately 104 million border crossings per
                          year. Prior to being issued a BCC, several background checks are conducted on
                          Mexican travelers.26

                          A BCC can be used as either a BCC or a B1/B2 visa.27 When used as a BCC, a
                          Mexican citizen may enter the United States for up to 72 hours and must stay
                          within 25 miles of the border. A visitor intending to stay for longer than 72 hours
                          or travel more than 25 miles from the border must declare this intention and apply

25
   Data provided by US-VISIT Program Ofﬁce, FY 2004 Expenditure Plan, page 5, November 2003.

26
   The BCC is a travel document issued by DOS through its consular ofﬁces in Mexico.

27
   A B1 visa allows a non-immigrant to enter the United States temporarily for business. A B2 visa allows a non-immigrant to 

enter temporarily for pleasure (tourism).



Page 16                       Implementation of the United States Visitor and Immigrant Status
                                Indicator Technology Program at Land Border Ports of Entry
for admission under B1/B2 visa provisions. In this case, the foreign national is
referred to the secondary inspections area to obtain appropriate entry documents,
such as a Form I-94. BCC holders are not required to enroll in US-VISIT unless
they enter under the B1/B2 visa provisions.

All land POEs on the Mexican border have electronic card readers for scanning
information contained within the BCC; however, at most of the POEs, the card
readers are located in secondary inspections areas. Therefore, BCC holders
entering through primary inspections under provisions of the BCC are unlikely
to have their BCCs scanned. Instead, CBP primary inspections ofﬁcers visually
inspect BCCs before allowing visitors to enter the United States. As a result,
the entry of BCC holders is not electronically recorded and their identity is not
veriﬁed. In addition, with no exit component in place at land POEs, CBP ofﬁcers
have no practical means to determine when BCC holders have overstayed their
authorized period of admission to the United States.

The absence of routine BCC scanning and the lack of exit tracking could provide
a disincentive for BCC holders to declare their intent to travel more than 25 miles
beyond the border or to stay in the United States longer than 72 hours. Travelers
entering under the B1/B2 provisions must go to the secondary inspections area,
leave their vehicles, wait in line to obtain Forms I-94, pay a fee, and enroll in
US-VISIT. Travelers could avoid these processes by simply entering as a BCC
holder, and they could do so with little fear of being detected because the BCCs
are not scanned and entries are not recorded, making it nearly impossible to
determine whether travelers violated the terms of the BCC.

On August 10, 2004, DHS increased the period of time a Mexican foreign national
can stay in the United States as a tourist or on business using the BCC. Now,
BCC holders are required to enter under B1/B2 provisions only if they intend
to stay longer than 30 days or travel more than 25 miles from the border. This
change means that even fewer BCC holders will be required to enroll in the US-
VISIT program. This change in policy may be an attempt to address longstanding
complaints that there has not been parity in U.S. immigration policy treatment
of Mexican and Canadian visitors. However, this extension and subsequent
exclusion of more BCC holders from US-VISIT enrollment moves away from
achieving DHS’ goal of enrolling all foreign nationals entering and departing the
United States.




   Implementation of the United States Visitor and Immigrant Status         Page 17
     Indicator Technology Program at Land Border Ports of Entry
                            Exclusion of Visa Exempt Canadians

                            Visa exempt Canadians accounted for approximately 22% of foreign national land
                            border crossings in FY 2002. In most cases, Canadian citizens are allowed to
                            enter the United States without a visa or passport. Canadian “landed immigrants,”
                            similar to legal permanent residents in the United States, are also visa exempt
                            if they originally came from a VWP country. Visa exempt Canadians are not
                            required to enroll.

                            Canadians entering the United States have few travel restrictions and may stay
                            for up to six months. When crossing the border, a Canadian driver’s license is
                            an acceptable form of identiﬁcation to gain admission to the United States. We
                            believe this is a potential vulnerability to the integrity of the immigration process
                            because CBP ofﬁcers cannot readily verify data on Canadian driver’s licenses to
                            conﬁrm the identity of the individual who presents one. Because this group of
                            travelers is not enrolled in US-VISIT, this vulnerability will continue.

                            From January 2004 to late August 2004, 13 Canadian citizens were intercepted,
                            at either United States airports or at United States pre-clearance facilities at
                            Canadian airports, prior to entering the United States. Eight of the thirteen
                            were suspected of terrorist activities. The interceptions were possible because
                            inspectors were able to search databases or use advance passenger data to check
                            against identity and lookout databases.28 Because land POE inspectors do not
                            have the same opportunity to check passenger manifests or advance arrival data
                            against identity and lookout databases, and because visa exempt Canadians are
                            not enrolled in US-VISIT, the likelihood of intercepting those same Canadian
                            citizens at land POEs is small.

                            DHS ofﬁcials plan to enroll in US-VISIT only Canadians who are required to
                            obtain visas. The recently enacted Intelligence Reform and Terrorism Prevention
                            Act of 200429 requires that, by January 1, 2008, all travelers must provide
                            evidence to establish identity and citizenship when entering the United States.
                            Speciﬁcally, it requires that DHS develop and implement, as expeditiously as
                            possible, a plan that requires a passport or other document, or combination of
                            documents that sufﬁciently denotes the identity and citizenship for all travelers
                            entering the United States. This includes not only those categories of individuals
                            for whom documentation requirements had been previously waived but also U.S.


28
     DHS BTS Daily Operations Reports, January 3, 2004, to August 23, 2004.
29
     P.L. 108-458.


Page 18                         Implementation of the United States Visitor and Immigrant Status
                                  Indicator Technology Program at Land Border Ports of Entry
                         citizens. We encourage DHS to expedite this requirement well before the deadline
                         to improve the integrity of our immigration process.

                         Discontinuing Visa Waiver Program Enrollment

                         On April 2, 2004, DHS announced that foreign nationals from VWP countries
                         would be required to enroll in US-VISIT, and on August 31, 2004, DHS published
                         an interim rule in the Federal Register requiring enrollment for VWP countries.
                         Enrollment at air and sea POEs began on September 30, 2004, and at the 50
                         land ports on December 31, 2004.30 DHS said enrolling VWP foreign nationals
                         in US-VISIT would improve public safety, national security, and the integrity
                         of the immigration process because the United States does not have sufﬁcient
                         information to verify the identity of VWP travelers prior to their arrival at the
                         POE.

                         Foreign nationals from VWP countries accounted for approximately 0.8%
                         of foreign national land border crossings in FY 2002. Requiring US-VISIT
                         enrollment of foreign nationals from designated VWP countries may be only a
                         temporary solution because a deadline, established by the Border Security Act
                         of 2002, would not be met. This law mandated that, by October 26, 2004, VWP
                         countries have a program in place to issue tamper-resistant, machine readable,
                         biometric passports that comply with biometric and document identifying
                         standards established by the ICAO. In May 2003, the ICAO established facial
                         recognition technology as the passport biometric standard, not ﬁngerprints.
                         Although VWP counties are committed to making this change, many encountered
                         problems in introducing embedded biometrics into their passports. In August
                         2004, the deadline was extended until October 26, 2005.

                         As VWP countries become compliant with the Border Security Act and standards
                         established by the ICAO, facial recognition technology embedded in passports
                         will be different from the digital ﬁngerprint technology employed by US-VISIT.
                         The decision to include enrollment of VWP countries in the US-VISIT program
                         is prudent, mutually beneﬁcial to VWP countries and the United States as a
                         guard against identity theft, and would foster signiﬁcant enhancements to the
                         integrity of the immigration process. Until the two technologies for verifying
                         a traveler’s identity and admissibility are integrated, we believe VWP countries

30
  In another report, An Evaluation of the Security Implications of the Visa Waiver Program, OIG-04-26, April 2004, we
identiﬁed signiﬁcant organizational issues where BTS needed to strengthen and improve the management of the VWP. We
recommended that US-VISIT biometric processing be extended to VWP travelers; DHS adopted this program change on
September 30, 2004. This report is also available on our website at http://www.dhs.gov.oig.


                             Implementation of the United States Visitor and Immigrant Status                  Page 19
                               Indicator Technology Program at Land Border Ports of Entry
                     should continue to be required to enroll in US-VISIT, irrespective of the date they
                     achieve compliance with the Border Security Act. According to Program Ofﬁce
                     ofﬁcials, they plan to continue enrolling and processing VWP travelers through
                     US-VISIT, even after the ICAO compliant biometric passports, and the readers to
                     use them, are in place.

                     Lack of Exit Component at Land POEs

                     A US-VISIT exit component is not in place at land POEs. Without the exit
                     component, US-VISIT cannot match entry and departure records and cannot
                     identify those non-immigrants who may have overstayed the terms of their visas.
                     Accordingly, the system deployed on December 31, 2004, was not the automated,
                     integrated entry exit system speciﬁed by the DMIA legislation.

                     DMIA deﬁnes the “integrated entry and exit data system” as an electronic system
                     that provides access to, and integrates, alien arrival and departure data; uses
                     available data to produce reports on arriving and departing aliens; matches an
                     alien’s available arrival data with the alien’s available departure data; and assists
                     with identifying, through online search procedures, lawfully admitted non-
                     immigrants who may have remained in the United States beyond the authorized
                     period of admission.31 However, plans to record exits electronically have not
                     been completed. By July 31, 2005, the Program Ofﬁce plans to start testing RFID
                     technology, and the testing phase is expected to continue through the spring of
                     2006.

                     System Integration

                     US-VISIT program ofﬁcials envision an integrated system that will cover the
                     interactions of foreign nationals with United States ofﬁcials prior to their entry,
                     when they enter, while they are in the United States, and when they exit. The
                     integration of the various systems that will be needed to fully support US-
                     VISIT will be a complicated and expensive effort. Not only must the Program
                     Ofﬁce merge multiple DHS systems, such as the United States Citizenship and
                     Immigration Services (USCIS) case management systems and the upcoming
                     integration with the USCIS Biometric Support System (BSS), to support US-
                     VISIT requirements, but it must also integrate systems from other agencies such
                     as DOJ and DOS. Our report is focused on the role of US-VISIT at the land



31
     P.L. 106-215.


Page 20                 Implementation of the United States Visitor and Immigrant Status
                          Indicator Technology Program at Land Border Ports of Entry
POEs but we recognize that, ultimately, US-VISIT could encompass much more
than land border security operations.

The US-VISIT system is supported by multiple information technology systems
and some of these systems rely on information obtained by other federal agencies
as well as commercial airlines and sea carriers. These systems include TIPOFF
(a terrorist lookout database), NCIC, the Arrival Departure Information System
(ADIS), the Advance Passenger Information System (APIS), IBIS, the Automated
Biometric Identiﬁcation System (IDENT), the Biometric Veriﬁcation System
(BVS), CCD, the Integrated Automated Fingerprint Information System (IAFIS),
the National Automated Immigration Lookout System (NAILS), and SEVIS.
While some of these systems are able to interface with each other, they currently
are not integrated within the US-VISIT system. Many are systems that employ
old technology and cannot easily share information with other systems. Also,
many of these systems are maintained by different agencies and support functions
speciﬁc to those agencies, which may not be compatible with the needs of US-
VISIT.

Currently, CBP ofﬁcers must perform queries of multiple systems when trying
to establish an individual’s identity and determine admissibility. Integrating
the multiple systems to compile a complete traveler identity proﬁle based on
biographic and biometric information without requiring queries of multiple
systems by CBP ofﬁcers will be a major challenge to achieving an automated,
integrated entry exit system. Achieving system integration becomes particularly
important at land POEs due to limited inspection time and the absence of advance
passenger information. This integration must occur in order to provide CBP
ofﬁcers at land POEs with timely, complete, and accurate information to establish
travelers’ identities and admissibility and to identify potential national security
risks. The full integration of all of these systems with US-VISIT has been
deferred until Increment 4 is deﬁned.

Achieving a Comprehensive Solution

The full implementation of US-VISIT, as currently envisioned, will be a complex,
technologically challenging and risky, and expensive project. DHS envisions that
the US-VISIT program will take ﬁve to ten years to implement a comprehensive
solution of integrated systems, processes, and data for electronically tracking
the pre-entry, entry, status management, and exit of all classes of foreign
national visitors seeking admission or continued admission to the United States.
Working in conjunction with the prime integrator, other governmental entities,



   Implementation of the United States Visitor and Immigrant Status         Page 21
     Indicator Technology Program at Land Border Ports of Entry
                          and interested groups, the comprehensive program is intended to be a complete
                          solution to managing our borders. It will improve business processes across the
                          federal government by employing better collection, dissemination, management,
                          and analysis of information and data obtained.

                          To support US-VISIT in meeting its challenge, the Program Ofﬁce awarded the
                          prime integrator contract to Accenture LLP on June 1, 2004. The prime integrator
                          will provide design, integration, and implementation of existing and new systems
                          to achieve a comprehensive entry exit system to secure the nation’s borders while
                          facilitating legitimate travel. The initial ﬁve-year contract, with one-year options
                          for extension of another ﬁve years, is worth a minimum of $10 million and a
                          maximum of $10 billion.32

                          Information and data acquired and generated by the US-VISIT program should
                          prove increasingly useful. The information could be used to analyze resource and
                          stafﬁng needs; trafﬁc, travel, and visitor patterns; and risks and threats. Analysis
                          would allow the Program Ofﬁce to adjust operations on a nationwide basis or to
                          respond to the needs of speciﬁc ports.

                          Information could be used to assist with risk assessments that span the virtual
                          border and support strategic planning for an integrated border management
                          system. Tracking immigration beneﬁts and supporting information, identifying
                          visitors who have overstayed the terms of admission, and reporting such
                          information will make it possible to take appropriate and timely action.
                          Electronic recording of entry and exit records would be matched and visa
                          compliance would be determined and maintained along with travel history.

                          The long-term, comprehensive goal for the US-VISIT program will require
                          implementing standard business processes that work in concert with technology
                          and information systems at all land, sea, and air POEs. Choosing the appropriate
                          application of technology and business process reengineering to address the
                          problems associated with limited space, infrastructure, and facilities will be a
                          formidable challenge. When the program is fully operational, it will contribute
                          substantially to overall border management goals and provide the United States
                          with a more expeditious and secure entry-exit process.




32
  Program ofﬁce ofﬁcials said that the prime integrator would not play a role in the implementation of US-VISIT at the 50
highest volume land POEs by December 31, 2004, and therefore, we did not meet with Accenture LLP as part of this review.


Page 22                       Implementation of the United States Visitor and Immigrant Status
                                Indicator Technology Program at Land Border Ports of Entry
                            Appendix A
                            Deployment of the Highest Volume Land Ports of Entry



RANK            LAND PORT OF ENTRY                        STATE
 1      San Ysidro- San Diego                                CA
 2      Laredo-Lincoln –Juarez                               TX
 3      Calexico                                             CA
 4      Hidalgo                                              TX
 5      Paso Del Norte - El Paso                             TX
 6      Otay Mesa – San Diego                                CA
 7      Laredo AF – Convent Street                           TX
        Lewiston-Queenston Bridge
 8                                                           NY
        Whirlpool Rapids
  9     Rainbow Bridge - Niagara Falls                       NY
 10     San Luis                                             AZ
 11     Nogales East                                         AZ
 12     Bridge of the Americas (BOTA) El Paso                TX
 13     Ysleta - El Paso                                     TX
 14     Douglas                                              AZ
 15     Gateway – Brownsville                                TX
 16     Calexico East -Imperial Valley                       CA
 17     Detroit Ambassador Bridge                            MI
 18     Peace Bridge – Buffalo                               NY
 19     Detroit Tunnel                                       MI
 20     Pharr                                                TX
 21     Del Rio                                              TX
 22     B&M – Brownsville                                    TX
 23     Eagle Pass II                                        TX
 24     Port Huron - Blue Water Bridge                       MI
 25     Los Tomates – Brownsville                            TX
 26     Progreso                                             TX
 27     Eagle Pass                                           TX
 28     Sault Ste. Marie                                     MI
 29     Marisposa - Nogales West                             AZ
 30     Andrade                                              CA



 Implementation of the United States Visitor and Immigrant Status        Page 23
   Indicator Technology Program at Land Border Ports of Entry
Appendix A
Deployment of the Highest Volume Land Ports of Entry



                       31      Roma                                                 TX
                       32      Paciﬁc Highway – Blaine                              WA
                       33      Peace Arch – Blaine                                  WA
                       34      Champlain                                            NY
                       35      Los Indios                                           TX
                       36      Tecate                                               CA
                       37      Rio Grande City                                      TX
                       38      Massena                                              NY
                       39      Calais - Ferry Point                                 ME
                       40      Alexandria Bay – Thousand Island                     NY
                       41      International Falls                                  MN
                       42      Presidio                                             TX
                       43      Sumas                                                WA
                       44      Laredo – Columbia                                    TX
                       45      Lukeville                                            AZ
                       46      Derby Line                                           VT
                       47      Point Roberts                                        WA
                       48      Fabens                                               TX
                       49      World Trade Bridge – Laredo IV                       TX
                       50      Santa Teresa                                         NM




Page 24                 Implementation of the United States Visitor and Immigrant Status
                          Indicator Technology Program at Land Border Ports of Entry
                                                               Appendix B
                                                               Management Comments




Implementation of the United States Visitor and Immigrant Status             Page 25

  Indicator Technology Program at Land Border Ports of Entry

Appendix B
Management Comments




Page 26               Implementation of the United States Visitor and Immigrant Status
                        Indicator Technology Program at Land Border Ports of Entry
                                                               Appendix B
                                                               Management Comments




Implementation of the United States Visitor and Immigrant Status             Page 27

  Indicator Technology Program at Land Border Ports of Entry

Appendix B
Management Comments




Page 28               Implementation of the United States Visitor and Immigrant Status
                        Indicator Technology Program at Land Border Ports of Entry
                                                               Appendix B
                                                               Management Comments




Implementation of the United States Visitor and Immigrant Status             Page 29

  Indicator Technology Program at Land Border Ports of Entry

Appendix C
OIG Evaluation of Management Comments



                   We evaluated the US-VISIT Program Ofﬁce’s written comments and have made
                   changes to the report where we deemed appropriate. Below are a summary of the
                   Program Ofﬁce’s written responses to the report and our analysis of the responses.

                   In response to the report, the Program Ofﬁce noted the accomplishments and
                   success it has demonstrated in enhancing the security of U.S. citizens and
                   visitors, facilitating legitimate travel and trade, enhancing the integrity of the U.S.
                   immigration system, and protecting the privacy of our visitors. At inspections
                   areas, CBP Ofﬁcers search biographical and biometric databases of known
                   criminals and terrorists. Implementation of US-VISIT at the 50 highest volume
                   land POEs has gone smoothly and appears to have reduced wait times for those
                   required to enroll. Pilot exit testing programs are ongoing at four airports and one
                   seaport. A Privacy Impact Assessment has been published applying aspects of
                   the Privacy Act to non-immigrants. The Program Ofﬁce also noted that they have
                   met the minimum statutory requirements for an entry exit system speciﬁed by
                   legislation.

                   We recognize the efforts and progress made by the Program Ofﬁce to fulﬁll
                   its mission and meet the goals of the US-VISIT program. However, as the
                   development and implementation of the comprehensive vision for US-VISIT
                   progresses, the Program Ofﬁce faces many challenges. We have discussed some
                   of these challenges in the report, including the lack of an exit component at land
                   POEs. While the minimum statutory requirements may have been met for US-
                   VISIT implementation at land POEs, only the bare minimum has been achieved.
                   Matching entries with departures at land POEs, through the use of RFID or
                   other technology, continues to be a necessary enhancement to the integrity of the
                   immigration system.

                   US-VISIT Response: The Program Ofﬁce responded to our statement, in the
                   Deployment section that, “Biometric readers have been deployed to all U.S.
                   POEs.” Biometric readers that will read ICAO standard passports have not
                   been deployed to U.S. POEs. For the most part, technical problems around the
                   biometric passports themselves have been solved and passport production has
                   begun in some nations. However, many countries, including the United States,
                   are encountering problems related to contracting, budget, and acquisition cycles.
                   The focus is now on resolving problems related to the production of biometric
                   readers and the integration of these readers into the inspections process. To date,
                   the readers that have been tested in the simulated POE environment do not yet
                   meet the operational requirements of U.S. inspection systems.




Page 30               Implementation of the United States Visitor and Immigrant Status
                        Indicator Technology Program at Land Border Ports of Entry
                                            Appendix C
                                            OIG Evaluation of Management Comments



OIG Evaluation: We made changes in the report to reﬂect that biometric readers
that will read ICAO standard passports have not been deployed to U.S. POEs and
that for the most part, technical problems surrounding the biometric passports
have been solved.

US-VISIT Response: In the Exclusion of Visa Exempt Canadians section,
the comment was made in reference to our statement that “DHS ofﬁcials told
us they do not plan to enroll Canadians in US-VISIT.” DMIA requires the
electronic collection of entry data on aliens who are currently documented at
entry. Only aliens who currently receive Forms 1-94 have their entry and exit
recorded; therefore, this population continues to be sent to secondary inspection,
as appropriate, where their entry is electronically recorded and their ﬁngerscans
collected for enrollment and watchlist veriﬁcation. Canadians who present visas,
and who therefore receive Forms I-94 at entry, are enrolled in US-VISIT in air,
land, and sea environments.

OIG Evaluation: We made changes in the report to reﬂect that DHS ofﬁcials
plan to enroll in US-VISIT only Canadians who are required to obtain visas.

US-VISIT Response: In reference to our statement, in the Discontinuing Visa
Waiver Program Enrollment section, that “We believe VWP countries should
continue to be required to enroll in US-VISIT, irrespective of the date they
achieve compliance with the Border Security Act,” the Program Ofﬁce agrees.
In addition, the Program Ofﬁce plans to continue enrolling and processing VWP
travelers through US-VISIT, even after the ICAO compliant biometric passports,
and the readers to use them, are in place.

OIG Evaluation: We have made changes in the report to reﬂect the statement
that Program Ofﬁce ofﬁcials plan to continue enrolling VWP travelers in US-
VISIT.

US-VISIT Response: In reference to our statement, in the Lack of Exit
Component at Land POEs section, that “A US-VISIT exit component is not in
place at land POEs,” the Program Ofﬁce is exploring the use of radio frequency
identiﬁcation (RFID) technology as a tool that will better enable the program to
fulﬁll its goals. Testing will begin at the ports of Nogales East and Nogales West
in Arizona; Alexandria Bay in New York; and Paciﬁc Highway and Peace Arch
in Washington by July 31, 2005 and is expected to continue through the spring of
2006.




   Implementation of the United States Visitor and Immigrant Status        Page 31
     Indicator Technology Program at Land Border Ports of Entry
Appendix C
OIG Evaluation of Management Comments



                   OIG Evaluation: We made changes in the report to reﬂect Program Ofﬁce plans
                   to start testing RFID technology by July 31, 2005, and that the testing phase is
                   expected to continue through the spring of 2006.

                   US-VISIT Response: They questioned our statement, in the same section,
                   that “Accordingly, the system deployed on December 31, 2004, was not the
                   automated, integrated entry exit system speciﬁed by the DMIA legislation.”
                   The Program Ofﬁce responded that the legislation does not require DHS or the
                   Department of State to collect data on any population where entry information
                   is not already being collected. With regard to departure data, DMIA requires
                   the entry-exit system to match the “alien’s available arrival data with the alien’s
                   available departure data.”

                   DHS contends it has met the minimum statutory requirements for creating
                   an entry exit system. In addition, although DHS has met the DMIA statutory
                   requirement regarding land borders, it recognizes the need to do more to secure
                   our borders and fully intends to leverage new technology to capture information
                   about arrivals and departures at land borders in the future.

                   OIG Evaluation: While the minimum statutory requirements may have been
                   met for US-VISIT implementation at land POEs, we believe the spirit of the
                   law intended to have an automated, integrated exit component at land POEs.
                   Matching entry records with departure records at land POEs, through the use of
                   the RFID technology currently being developed and tested or other technology,
                   will increase security and enhance the integrity of the immigration system.

                   US-VISIT Response: In the System Integration section, the Program Ofﬁce
                   wants the USCIS case management systems along with the upcoming integration
                   with the USCIS BSS cited in addition to the other systems listed.

                   OIG Evaluation: We made changes in the report to reﬂect these systems.

                   US-VISIT Response: Appendix A should be modiﬁed to remove the word
                   “proposed” and the POEs of Stanton Street Bridge, Texas, and Milltown, Maine,
                   as these POEs were not included in the December 2004 deployment.

                   OIG Evaluation: We removed the word “proposed” and the two POEs from
                   Appendix A in the report.




Page 32               Implementation of the United States Visitor and Immigrant Status
                        Indicator Technology Program at Land Border Ports of Entry
                                                       Appendix D
                                                       Major Contributors to This Report



David M. Hiles, Chief Inspector, Department of Homeland Security, Ofﬁce of
Inspections, Evaluations, and Special Reviews

Marcia Moxey Hodges, Chief Inspector, Department of Homeland Security,
Ofﬁce of Inspections, Evaluations, and Special Reviews

Jennifer A. Lindsey, Inspector, Department of Homeland Security, Ofﬁce of
Inspections, Evaluations, and Special Reviews




   Implementation of the United States Visitor and Immigrant Status               Page 33
     Indicator Technology Program at Land Border Ports of Entry
Appendix E
Report Distribution



                      Department of Homeland Security

                      The Honorable Michael Chertoff
                      Secretary

                      Admiral James Loy
                      Deputy Secretary

                      The Honorable Asa Hutchinson
                      Under Secretary
                      Border and Transportation Security

                      The Honorable Robert C. Bonner
                      Commissioner
                      Customs and Border Protection

                      Mr. Jim Williams
                      Director
                      US-VISIT Program Ofﬁce

                      Mr. Duncan Campbell
                      Chief of Staff

                      Mr. Brian Besanceney
                      Acting Assistant Secretary
                      Public Affairs

                      Mr. Joe D. Whitley
                      General Counsel

                      Mr. Jack L. Johnson, Jr.
                      Chief Security Ofﬁcer

                      Mr. Steven J. Pecinovsky
                      DHS OIG Liaison

                      Ms. M. Evelyn Lim
                      BTS Audit Liaison
                      Border and Transportation Security




Page 34                  Implementation of the United States Visitor and Immigrant Status
                           Indicator Technology Program at Land Border Ports of Entry
                                                                      Appendix E
                                                                      Report Distribution



Mr. Thomas Harner
US-VISIT Liaison
US-VISIT Program Ofﬁce

Ms. Cecelia Neglia
CBP Audit Liaison
Customs and Border Protection

Ofﬁce of Management and Budget

Ms. Katherine Fox
Chief, Homeland Security Branch
Ofﬁce of Management and Budget

Mr. Jim Holm
Program Examiner
Ofﬁce of Management and Budget

Congress

Select Committee on Homeland Security
U.S. House of Representatives

Committee on Appropriations
U.S. House of Representatives

Committee on Government Reform
U.S. House of Representatives

Committee on the Judiciary
U.S. House of Representatives

Committee on Transportation and Infrastructure
U.S. House of Representatives

Committee on Commerce, Science and Transportation
United States Senate

Committee on the Judiciary
United States Senate



   Implementation of the United States Visitor and Immigrant Status               Page 35
     Indicator Technology Program at Land Border Ports of Entry
Appendix E
Report Distribution



                      Committee on Governmental Affairs
                      United States Senate

                      Committee on Appropriations
                      United States Senate




Page 36                  Implementation of the United States Visitor and Immigrant Status
                           Indicator Technology Program at Land Border Ports of Entry
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Ofﬁce of Inspector General/MAIL STOP
2600, Attention: Ofﬁce of Investigations - Hotline, 245 Murray Drive, SW, Building
410, Washington, DC 20528, or email DHSOIGHOTLINE@dhs.gov. The OIG seeks to
protect the identity of each writer and caller.
